                                         NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

Case Number: A09030020                                                         Page 1 of 1


        A PI (the subject)l was accused of plagiarism in his proposal2 by copying text
        verbatim from a paper. We found a small amount of text copied verbatim from two
        papers. 3 The papers from which the subject copied were cited, but not immediately
        preceding or following the copied text, and the text was not distinguished from his
        own.
        We wrote to the subject who acknowledged he had neglected to put the content of
        his research notes in his wording. He noted the copying was part of his surVey of
        recent research, not his proposed research, and he did not try to mislead the
        reviewers. He pointed out that he referenced both of the papers of concern, but, in
        retrospect, he realized he should have at least put the text originating from those
        papers in quotation marks.
        He told us there was not other unattributed text either in this proposal or others.
        We evaluated three of the subject's other proposals with our plagiarism software
        and found no other instances of copying, so we agree this appears to be an isolated
        instance.
        Given the existence of citations to the source, as well as other citations to those
        authors' papers by the authors' names, we concur with the subject that the
        reviewers would likely not be misled into thinking the text was describing the
        subject's research results, but rather it was describing the accomplishments of other
        research groups. Together with the relatively small amount of copying, we
        concluded it would be appropriate to explain proper citation practices to the subject
        and warn him about future occurrences. We sent the subject a questionable
        practice letter, and closed this case.




NSF OIG Form 2 (11/02)
